<html>
<title> - COUNTERING IRANIAN PROXIES IN IRAQ</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   COUNTERING IRANIAN PROXIES IN IRAQ

=======================================================================

                                 HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                           Serial No. 115-159

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                               __________
                                 
                 U.S. GOVERNMENT PUBLISHING OFFICE                    
32-304PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd9">[email&#160;protected]</a>                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
                             ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Behnam Ben Taleblu, research fellow, Foundation for Defense 
  of Democracies.................................................     7
Kimberly Kagan, Ph.D., president, Institute for the Study of War.    29
Mr. Michael Pregent, senior fellow, Hudson Institute.............    36
The Honorable Barbara Leaf, Rosenblatt Distinguished Visiting 
  Fellow, The Washington Institute for Near East Policy..........    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Prepared statement................     4
Mr. Behnam Ben Taleblu: Prepared statement.......................    10
Kimberly Kagan, Ph.D.: Prepared statement........................    31
Mr. Michael Pregent: Prepared statement..........................    38
The Honorable Barbara Leaf: Prepared statement...................    47

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Ted Poe:
  Letter to the Honorable Mark Pompeo, Secretary, U.S. Department 
    of State, from the Honorable Edward R. Royce, a 
    Representative in Congress from the State of California, and 
    chairman, Committee on Foreign Affairs, and the Honorable Ted 
    Poe, dated August 29, 2018...................................    68
  Letter to the Honorable Ted Poe from Mr. Charles S. Faulkner, 
    Acting Assistant Secretary, Legislative Affairs, U.S. 
    Department of State, dated September 24, 2018................    69

 
                   COUNTERING IRANIAN PROXIES IN IRAQ

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation in the rules.
    I will make my opening statement and, then, yield to the 
ranking member, Mr. Keating from Massachusetts, for his opening 
statement.
    For years, Iran has gone unchecked as it expanded its 
influence and recruited legions of murdering proxies across the 
Middle East. Lavishly funded by sanctions relief under the Iran 
Nuclear Deal, a network of terrorist criminals sow chaos in 
Yemen, Syria, Bahrain, Lebanon, and Iraq. Their objective: To 
expel U.S. influence from the region, conquer our allies, and 
subjugate millions, and establish the regime in Tehran as the 
undisputed master of the Middle East.
    One of the central fronts in Iran's effort to do this is in 
Iraq. Make no mistake about it, Iran wants to make Iraq a 
puppet state of Iran. Exploiting Iraq's weak government and the 
fight against ISIS, Iran has mobilized thousands of militiamen 
and proxies to gain power in Baghdad. They are using their 
growing influence in Iraq to foster sectarianism, secure a 
supply line to terrorists in Syria and Lebanon, and recruit 
fighters for their many wars.
    Iran is not interested in building a strong and sovereign 
Iraq. Iran is not interested in a peaceful Iraqi society where 
Sunnis, Shiites, Christians, and Kurds live in harmony 
together. As America and our allies have come to help fight 
ISIS and restore Iraq's legitimate authority over its own 
territory, Iran has been working to undermine our hard-won 
victory and threaten our soldiers and our diplomats.
    In May, Iraq held its first election since the defeat of 
the ISIS caliphate. But many Iraqis did not bother to vote 
because they saw that the system in their country is corrupt. 
Like the Iranian people, they see the hand of Iran's oppressive 
regime in undermining the institutions in Iraq. They see Iran's 
proxies, men who swear allegiance to the Supreme Leader in 
Tehran, running for office in their own country of Iraq. They 
see the vast wealth of their nation being squandered to pay for 
Iran's militias while they live in poverty, without clean water 
or electricity.
    The Iraqi people are now in the streets demanding a change. 
They do not like the direction their nation is going and the 
heavy influence of Iran in their nation's politics. We should 
not, either.
    Men that ordered the murder of Americans only a few decades 
ago are gaining a foothold in Iraq's new government. These 
Iranian-supported terrorists turned politicians regularly 
threaten Americans and our allies while their militias have 
committed countless atrocities across Iraq and Syria. For 
years, they have murdered their own countrymen and have forced 
thousands from their homes. Meanwhile, our Government has 
sought to appease Iran's proxies in Iraq.
    Despite the President's clear direction to counter Iran's 
expansionism across the Middle East, the State Department has 
shielded these murderers from any punishment. They say now is 
not the time; we could upset the status quo. We are allowing 
fear to get the better of common-sense foreign policy.
    That is why I have introduced H.R. 4238, the Iranian 
Proxies Terrorist Sanctions Act, introduced over a year ago. 
The bill would target two specific Iraqi militias, Asaib Ahl 
al-Haq and Harakat Hezbollah al-Nujaba, commonly referred to as 
AAH and HHN, which are terms that I will use because they are a 
lot easier to pronounce.
    These terrorists answer directly to Iran and they have the 
blood of Americans, Iraqis, Syrians, and Kurds on their hands. 
For some unknown reason, we have refrained from targeting these 
groups, despite their evil acts. U.S. inaction has allowed 
these terrorists to gain more and more power in Iraq and now in 
the Iraqi Government.
    As is usually the case in Washington, ``analysis 
paralysis'' has set in. So-called ``experts'' say Congress 
should not be mandating sanctions and we should pass the buck 
to the Executive Branch. We have the responsibility as 
representatives of Americans killed by these groups to not 
stand idly by.
    My staff was in Baghdad last month, and the Embassy staff 
scoffed at this legislation, saying sanctions would provoke the 
terrorist militias. Ironically, just a few weeks later, these 
groups launched a mortar attack against the U.S. Embassy in 
Baghdad.
    This stalling technique of government bureaucrats who have 
a long track record of inaction on this issue is not good for 
the United States foreign policy or the Iraqis. While we do 
nothing, Iran is doing everything. They are expending all of 
their efforts to consolidate their power in Baghdad, and it is 
paying off.
    It seems to me Americans should be tired of investing blood 
and treasure in Iraq as Iran seizes more power. If Iraq is ever 
going to become a strong and independent nation, we must take a 
stand against Iranian proxies in that nation.
    Without objection, I want to introduce two letters: One 
letter from Chairman Royce and myself to the Secretary of State 
requesting the Secretary of State to examine these two 
terrorist organizations and to see if they meet the foreign 
terrorist organizations requirement. We received a reply 
yesterday that basically said what the requirements were to be 
designated as a foreign terrorist organization; basically, no 
answer at all.
    Without objection, I would like to introduce both of these 
into the record.
    Mr. Keating. No objection.
    Mr. Poe. And now I will yield to the ranking member, Mr. 
Keating from Massachusetts. Go ahead.
    [The prepared statement of Mr. Poe follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Keating. Thank you, Mr. Chairman.
    We have held a number of hearings on Iran and its 
destabilizing activities throughout the region. Today we focus 
specifically on Iran's engagement in Iraq. It would be an 
understatement to say that the security situation in Iraq has 
presented an incredible challenge to the United States foreign 
policy and national security. And throughout, the Iraqi people 
have suffered greatly over the course of multiple conflicts.
    Today we are at a critical juncture. How the U.S. engages 
with Iraq, with its government, its people, and its economy can 
have an outsized impact on whether Iraq is able to build on the 
fragile security that exists today and actually achieve lasting 
stability. Iraq has to be more than where we have a military 
base to combat ISIS.
    This hearing today is, therefore, timely and important 
because, as we shape our own policy toward Iraq for the coming 
years, we can't ignore Iran's influence and interest there. The 
history between Iran and Iraq is long and complex, and Iran's 
entrenched influence throughout Iraq's policy and military 
apparatus stymies efforts to strengthen democratic institutions 
there and ensure that the Iraqi Government can effectively 
protect its citizens from internal and external threats.
    A government must be able to exercise control over the use 
of force within its borders, and the political parties and 
representatives in a country must be loyal, first and foremost, 
to their country and their people. Iran's control over and ties 
to political and military groups in Iraq flies in the face of 
these critical objectives and undermines Iraq's ability to ever 
be able to fully be independent and secure.
    How to reduce and manage Iran's influence, however, is an 
open question, not only because of Iran's ties to powerful 
entities and individuals in Iraq, ones that run deep, but also 
because our policies toward Iran and across the region, as well 
as those of our allies, are also at play.
    There are two general ways to think about approaching the 
issue: By countering the Iranian influence, their agents, and 
actions, on the one hand, and by working ourselves and our 
allies to support Iraq in pursuit of its own stability and 
sovereignty, both of those things.
    Countering Iran's influence in the region through sanctions 
and related means has received a lot of attention. However, I 
am concerned that we don't do enough to also pay enough 
attention to the policies that would support Iraq in becoming 
more independent and more resilient to Iranian policies and 
actions, actions that undermine that independence.
    Today, I look forward to discussing our options for moving 
forward to address Iran's influence in Iraq. Specifically, what 
steps our State Department should be taking alongside Treasury, 
DoD, Commerce, and others? What can and should we be doing as 
part of a coalition with our allies to further this progress? 
What barriers exist to reducing the influence of Iran's proxies 
in Iraq, and what can we do with our allies to eliminate those 
barriers? And also, what should we avoid in terms of policy 
missteps, so that the conflict that is mired in Iraq's past can 
be overcome in favor of stability, a stability that keeps Iraq 
safe, keeps Americans safe, and promotes our shared interest in 
the region?
    We are seeing a shift in Iraq right now where people are 
demanding that their government be accountable to them, and not 
to foreign interests. We share that vision for Iraq's future 
and have a lot more that we could do to promote closer, more 
productive diplomatic security and economic ties with Iraq that 
Iraqi interests would benefit by.
    We have this opportunity to break with the history of 
challenges and conflicts in Iraq and, instead, choose how we 
will support a different path forward. It is my hope that we 
will take this opportunity and use it wisely.
    And so, I look forward to the testimony of our witnesses 
today and hearing from you on what should be another important 
committee hearing, and hopefully, one that can move us forward 
to be successful in this endeavor.
    Thank you, Mr. Chairman. I yield back.
    Mr. Poe. I thank the gentleman.
    Without objection, all members may have 5 days to submit 
statements, objections, questions, extraneous materials for the 
record, subject to the length limitation in the rules.
    And without objection, all of the witnesses' prepared 
statements will be made part of this record.
    I ask that each witness keep your presentation keep your 
presentation to no more than 5 minutes. When you see the red 
light come on in front of you, it is very simple; just stop, 
not slow down; just stop.
    Thank you.
    Mr. Behnam Taleblu is a research fellow at the Foundation 
for Defense of Democracies, where he specializes in 
nonproliferation issues in Iran.
    Dr. Kimberly Kagan is the president of the Institute for 
the Study of War. She was awarded the Distinguished Public 
Service Award by the chairman of the Joint Chiefs of Staff, 
Admiral Mike Mullen, for her service advising U.S. commanders 
in Iraq and Afghanistan.
    Mr. Michael Pregent is a senior fellow at the Hudson 
Institute. He is a former intelligence officer in the United 
States Army, serving in Iraq and Afghanistan, including as an 
embedded advisor to the Iraqi Government.
    And Ambassador Barbara Leaf is the Rosenblatt Distinguished 
Visiting Fellow at the Washington Institute for Near East 
Policy. Previously, she served as U.S. Ambassador to the United 
Arab Emirates as well as other senior positions at the State 
Department, including as the first Director of the Office of 
Iranian Affairs.
    Mr. Taleblu, we will start with you.

     STATEMENT OF MR. BEHNAM BEN TALEBLU, RESEARCH FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Taleblu. Chairman Poe, Ranking Member Keating, 
distinguished members of the Subcommittee on Terrorism, Trade, 
and Nonproliferation at the House Foreign Affairs Committee, on 
behalf of FDD, thank you for inviting me to testify.
    It is a privilege to present my analysis today alongside 
Dr. Kagan, Mr. Pregent, and Ambassador Leaf, all of whose work 
on Iraq and Iran, as well as their service to our country, I 
respect and admire.
    Also, I want to personally thank Judge Ted Poe, who I 
understand is retiring this year, for his leadership in 
Congress on the Iran issue.
    Mr. Poe. You are thanking me for retiring? Is that what you 
said? [Laughter.]
    Mr. Taleblu. For your leadership, sir, for your leadership.
    Today, I will focus my comments on Iran's proxy strategy 
and militias, while highlighting measures like designations to 
counter Iran's armed agents of influence. Such as move does two 
important things. One, establishes the predicate for a new Iraq 
policy beyond the ISIS mission, and, two, helps implement the 
regional components of a more comprehensive Iran policy, which 
the current administration called for almost 1 year ago.
    The Islamic Republic's proclivity for using proxies is not 
only consistent with its ideological goals, but also reflects a 
cognizance of escalation dynamics and the country's military 
aptitudes. Iran uses proxies, terror groups, and militias 
throughout Iraq and the Middle East because they enable the 
regime to do five key things.
    One, help mask its hand abroad, aiding in deniability.
    Two, dampen the prospects for escalation against Iranian 
territory.
    Three, exploit the U.S.'s high bar for the use of force by 
operating in the gray zone.
    Four, enter conflicts at an earlier stage, helping shape 
the outcome quicker, since militias are cheaper and easier to 
deploy.
    And five, translate relatively cheap military power into a 
durable political influence.
    This last point is crucial, given the success of doing it 
in Lebanon with Hezbollah, and now, the threat of Iraqi Shiite 
militias capturing the state.
    Now to the militias. While there are too many militias to 
review in detail, my written testimony profiles four key 
militias, two of which are AAH and HHN. Both these groups 
retain overt links to Iran, are an impediment to Iraqi 
sovereignty, and a threat to U.S. foreign and security policy 
in Iraq and Syria.
    The ascendency of these militias who seek to draw Iraq into 
Iran's orbit and eject the U.S. from the region is a threat. 
Three U.S. Presidents have used designations before to disrupt 
the IRGC's financial support networks, expose its agents and 
affiliates, and publicly stigmatize them. It is now time to go 
with that approach in Iraq.
    It is my recommendation that the U.S. use counterterrorism 
authorities to designate select Iranian proxies in Iraq that 
retain close ties to the IRGC. The legal authorities for such a 
move already exist, as does the evidence, as does the 
commensurate regional approach toward their patron, Iran. This 
makes the main issue one of political will.
    Designating Iran-backed militias at a time when anti-
Iranian sentiment is on the rise in Iraq can strengthen the 
hand of those who want to contest Tehran in Baghdad. A 
designation can also send a message of deterrence and resolve 
against those who would side with Tehran over Washington 
willingly.
    As a cautionary note, my recommendation for a terrorism 
designation should be seen as a floor, not ceiling, for U.S. 
policy. Designations will not do away with the Iranian proxy 
threat, but they can help the U.S. approach the problem with 
Iranian expansion and subversion more directly by using all 
elements of national power.
    In my written testimony, I offer a survey of authorities, 
more detailed arguments in favor of designations, 
counterarguments, as well as my attempt to rebut those 
counterarguments. I also offer at least 10 recommendations for 
Congress, ranging from naming and shaming to inquiring about 
the IRGC's penetration of the Iraqi economy and arranging for 
non-military aid. I can also speak to non-congressional 
measures, if asked.
    Earlier this month, the U.S. Special Representative for 
Iran, Brian Hook, said, ``We don't make a distinction between 
the Iranian Government and these Iranian Shiite militias that 
are around the Middle East.''
    Now is the time to operationalize that call. America cannot 
afford to cede Iraq with its human capital, natural resources, 
and legacy of more than a decade of American investment in 
terms of blood and treasure to Iran. To be clear, there are 
risks to any strategy that involve countering Iran in Iraq. 
But, if the U.S. does nothing, Iran's subversion of Iraq's 
politics and security is guaranteed.
    Thank you for your time and attention. I can address the 
militias more in detail later, but I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Taleblu follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Poe. Thank you.
    Dr. Kagan?

 STATEMENT OF KIMBERLY KAGAN, PH.D., PRESIDENT, INSTITUTE FOR 
                        THE STUDY OF WAR

    Ms. Kagan. Chairman Poe, Ranking Member Keating, and 
distinguished members of the subcommittee, colleagues, thank 
you for inviting me to testify and thank you for your expertise 
provided today.
    Iraq stands at a crossroads. It held a parliamentary 
election in May 2018, and as of today, it has not formed a 
government. The composition and the character of the next 
Government of Iraq will determine whether the U.S. can achieve 
its long-term goals and objectives, which I outline in my 
written testimony, through determined U.S. diplomatic 
engagement, backed by positive and, if needed, coercive 
instruments of policy.
    Iranian political proxies are competing with Iraqi figures 
acceptable to the U.S. and to the Iraqi people for control of 
the Iraqi Government. Victory for the Iranian proxies would 
likely lead to the expulsion of the U.S. from Iraq and de facto 
Iranian control over Iraqi foreign policy at least, if not its 
domestic policy also.
    Iraqi political parties are prohibited by law from 
maintaining armed militias, but many, nevertheless, do in 
reality. The most militarily capable of those militias respond 
to Iran and, in particular, to the Islamic Revolutionary Guard 
Corps Quds Force. These militias have been actively shaping the 
political environment to influence the government formation 
process not just politically, but through the use of force. 
They have also recently fired rockets toward the U.S. Embassy 
in Baghdad for the first time since 2014.
    American interests absolutely require that the future Iraqi 
Government not include the de facto leaders of these militias. 
The Iraqi Government has nominally incorporated some of these 
militias into the Iraqi Security Forces, unfortunately. They 
have acquired ISF, Iraqi Security Forces unit designations, 
hoping to obfuscate the fact that they remain distinct militia 
units responsive to separate chains of command and control.
    They have, nevertheless, rebuffed the Prime Minister's 
recent attempts to declare himself their Commander-in-Chief as 
recently as this month. Their true allegiance is to their 
Iranian masters.
    These forces will continue to corrode the ISF regardless of 
who becomes the next Prime Minister if these forces are 
permitted to remain effectively outside of the Iraqi Prime 
Minister's control or if the next Prime Minister is himself an 
Iranian proxy. The situation is unacceptable to the U.S. not 
simply because it will lead to attacks on American personnel 
and likely the expulsion of American forces; it will also erode 
the Iraqi Security Forces capability in the same way that 
occurred in 2013, allowing ISIS to seize large swaths of Iraq.
    The Trump administration has recently begun acting to 
resist the efforts of Iranian political proxies to capture the 
Iraqi state. It has begun to use the threat of the imposition 
of existing American sanctions aimed at Iran against Tehran's 
agents in Iraq and those who do business with them. Iraq has 
had to send a delegation to Washington to request special 
exemptions from these sanctions for the first time since the 
U.S. has waived them in the past without demanding any quid pro 
quo.
    The two organizations, AAH and the Nujaba movement, 
unquestionably, deserve to be sanctioned. And AAH, in 
particular, is responsible for killing, among others, five 
Americans in Karbala in 2007, a crime in which its leader, Qais 
Khazali, was actually complicit. And the Nujaba movement is a 
splinter of AAH and is establishing itself as a regional terror 
network.
    Now, however, is not the moment for Congress to mandate the 
imposition of sanctions on these or any other specific groups 
or individuals in Iraq. The threat of sanctions, either broad 
or highly targeted, is the most powerful non-military weapon 
American diplomats in the region have. The behavior of Iraqis 
as our diplomats have threatened to use this weapon of 
sanctions demonstrates its significance, because it changes 
Iraqis' behavior. Our diplomats are showing the determination 
and skill to use this tool in an extremely delicate effort to 
keep Iranian agents out of government.
    And right now, our priorities should be ensuring that Iraq 
forms a government that is sovereign, capable, and acceptable. 
Should the U.S. not be able to do so, or should these 
organizations, of course, remain after the government formation 
process, that is the time when Congress should consider 
mandating these sanctions against these terrorist groups.
    [The prepared statement of Ms. Kagan follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Poe. Thank you, Dr. Kagan.
    Mr. Pregent?

    STATEMENT OF MR. MICHAEL PREGENT, SENIOR FELLOW, HUDSON 
                           INSTITUTE

    Mr. Pregent. Chairman Poe, Ranking Member Keating, and 
distinguished members of the Subcommittee on Terrorism, 
Nonproliferation, and Trade, on behalf of the Hudson Institute, 
I am honored to testify before you today about countering 
Iranian proxies in Iraq.
    We are being asked today to define the threat of these 
militias, their role in Iraq, and what we can do about it. I 
come at this from a different position. I am a former 
intelligence officer. But when I was asked to do this by 
General Petraeus and H.R. McMaster in 2007, my job was to find 
levels of Iranian influence in the Iraqi Government and the 
Iraqi security intelligence apparatus.
    If I had had the amount of intelligence that I have today 
back in 2007, Qais Khazali wouldn't have 15 seats in the Iraqi 
Council of Representatives. Abu Mahdi al-Muhandis would not be 
the Deputy Commander of the Hashd al-Shaabi, the Popular 
Mobilization Units. Qassem Soleimani would not be walking the 
streets after Sunni towns are destroyed in this ISIS campaign.
    The level of evidence of Iranian influence in the Iraqi 
Government has never been higher than it is now, and I can't 
believe that we are sitting here trying to get Asaib Ahl al-Haq 
designated as a terrorist group when it has killed Americans 
when it was a premiere militia responsible for EFP attacks 
against Americans, explosively formed penetrator attacks 
against Americans, where it kidnapped five Americans in hopes 
of trading them for captured IRGC Quds Force operatives, only 
to have them executed when the raid went wrong.
    Qais Khazali had one seat in 2014 in Parliament. Because of 
our obfuscation in this U.S. anti-ISIS campaign where we 
actually empowered Iraqi Shiite militias tied to Iran to take 
credit for the victories against ISIS in this campaign, he now 
has 15 seats in the COR. My argument today is, discredit Qais 
Khazali now, sanction Qais Khazali and AAH now, so that once 
the Iraqi Government is formed, those seats are toxic. No one 
would want to stand next to Qais Khazali.
    We need to make it a point that no Iraqi politician that 
says they are pro-U.S. can feel comfortable standing next to 
Qais Khazali. They are very comfortable doing that now. We 
can't make it comfortable for the current Prime Minister, 
Haider al-Abadi, to stand next to Abu Mahdi al-Muhandis, a 
designated terrorist who is the leader of Kataib Hezbollah. 
Kataib Hezbollah is already a foreign terrorist organization.
    Abu Mahdi al-Muhandis is already designated. Yet, he is the 
Deputy Commander of the People's Mobilization Units, or the 
Popular Mobilization Units. He has killed Americans. He has 
directed that Americans be killed. He gets a government 
paycheck. No Iraqi politician is afraid to stand next to him 
unless you are somebody who is opposed to him being in the 
government. He commands the budget. He decides what militias 
get money.
    Now Kim brought up a great point. These militias are now in 
the Iraqi Security Forces. That means they have access to U.S. 
intelligence, U.S. equipment, U.S. funds. And if I was able to 
go to General Petraeus in 2007 and say, a Badr Corps officer is 
actually now the Minister in the Ministry of Defense, he would 
have said, ``I can't believe that.''
    Qasim al-Araji is the Director of the Ministry of Interior. 
He is a Badr Corps officer. And the biggest problem that we are 
talking about now, it is difficult for us to make an argument--
I don't know why it is, but there are some on the other side 
that don't want to designate AAH and Harakat Nujaba. But the 
key facilitator to everything Qais Khazali wants to do, 
everything that Abu Mahdi al-Muhandis wants to do, everything 
that Qassem Soleimani wants to do, is the leader for the Badr 
Corps, and his name is Hadi al-Amiri. He is the commander of 
the Hashd al-Shaabi, the People's Mobilization Units.
    Qais Khazali, in his declassified tactical intelligence 
reports, said that Badr Corps trained on explosively formed 
penetrators, trained on sniper missions, trained on rocket 
attacks, trained on mortar attacks against U.S. personnel. Yet, 
we have this argument that is dominant in Washington, DC, that 
Badr Corps is not as bad as AAH, not as bad as Harakat Nujaba, 
not as bad as the IRGC Quds Force, when Badr Corps facilitates 
everything these militias are doing in Iraq, are doing in 
Syria.
    So, I will close with this: We need to listen to the Iraqi 
people. There is the first time the Shia, Sunni, and Kurds in 
Iraq have told us to do something about Iranian influence. The 
Shia have burned down AAH offices. They have burned down Badr 
Corps offices. They have burned down Kataib Hezbollah's 
offices, and they burned down the Iranian Consulate. They are 
trying to tell us something. Listen to them.
    And I will stop there.
    [The prepared statement of Mr. Pregent follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Poe. Thank you.
    Ambassador?

      STATEMENT OF THE HONORABLE BARBARA LEAF, ROSENBLATT 
  DISTINGUISHED VISITING FELLOW, THE WASHINGTON INSTITUTE FOR 
                        NEAR EAST POLICY

    Ms. Leaf. Chairman Poe, Ranking Member Keating, and 
distinguished committee members, on behalf of the Washington 
Institute, thank you for the opportunity to appear today to 
offer my perspective on a new variant of an old challenge for 
the United States and Iraq and some suggestions for how we 
might proceed in the period ahead.
    No issue has so confounded U.S. policymakers across three 
administrations as how best to counter the role of Iran and the 
proxy forces it established on the terrain of its one-time foe. 
Washington has felt frustrated in its ability to blunt Iran's 
predatory and destabilizing activities. Certainly, Iran 
achieved its overriding strategic goal over the last 15 years, 
ensuring that Iraq could not pose a national security threat to 
Iran.
    To that point, Tehran used a varied set of tools, 
proliferation of well-equipped and trained Shia militias, 
subordinating and intimidating Iraqi politicians, directly 
intervening to shape a compliant government in Baghdad, gaining 
economic leverage over Iraq at large, and infiltrating Iraqi 
Security Forces.
    But much of Iran's earlier success was a product of 
exploiting three factors: The internal weakness of Iraq, U.S. 
mistakes, and the external environment. Changes wrought in all 
three do not wholly favor Iran today, and they offer material 
for crafting a refreshed and integrated U.S. approach to Iraq.
    As the Senate follows action by the House to consider 
legislation for imposing U.S. sanctions on these two Iranian-
controlled Iraqi militias, I would urge the administration to 
do the following or consider the following: Don't interrupt 
Iran while it is making mistakes. Tehran is suffering some of 
its most dramatic setbacks in Iraq since 2003, including 
violent anti-Iranian protests in Basra recently. A move for 
comprehensive sanctions on Asaib Al-Haq and Harakat Hezbollah 
would give Tehran a welcome chance to change this narrative to 
an anti-U.S. focus.
    Designate Harakat Hezbollah as a warning shot. There is 
less prospect for blowback. The militia does not take part in 
the political process and its leader was previously designated.
    Issue Asaib Ahl al-Haq sanctions at the right moment and on 
its leader first. Quietly signal to Iraqi interlocutors that 
Asaib Ahl al-Haq leader Qais Khazali and the group will be 
designated eventually, but hold off for now during delicate 
government formation.
    Don't crowd all the Shia factions to close ranks around 
Asaib ahl al-Haq. Iraqi leaders appear readier to swallow 
sanctions on the case than on the group writ large. Many of the 
group's foot soldiers joined after 2014 to fight ISIS, not to 
further a pro-Iranian agenda.
    Finally, coordinate with the new Iraqi Government. This is 
going to be challenging. Consulting is a gesture of no 
surprises/respect for the new government of a friendly country, 
and it may help us and the new Prime Minister manage the 
internal reaction productively.
    The final three points: The Iraq of 2018 is not the Iraq of 
2005 or 2011. Iraqi nationalism is percolating vividly just 
beneath the surface of the body politic with a corresponding 
antipathy toward Iran, and that presents a bold opportunity for 
the U.S., if handled adroitly.
    Washington, likewise, is different. The Trump 
administration appears fixed on fixing Iran's destabilizing 
regional activities. If it is serious, Iraq is the place to set 
that effort in motion with method and energy. Don't be limited 
to sanctions. Remind the Iraqi public and political class what 
ties with the U.S. offer that Iran cannot: Respect for Iraqi 
sovereignty, help in gaining security and stability, access to 
international financing and investment that will help create 
jobs.
    Finally, Iraq's isolation of earlier years has ebbed, 
replaced by warming ties with Jordan and a similar trend with 
its Gulf neighbors. The U.S. must press those partners to 
deepen their engagement with Baghdad.
    The contest for influence in Iraq for too many years has 
been a lonely game for the U.S. against Iran. It need not be. 
Washington's Arab allies have proximity; common language; 
shared history, not all of it unpleasant; some of them, deep 
pockets; all of them, sound national security reasons to pull 
Iraq firmly back into the community of nations.
    Unlike Washington, Tehran has an unblinking focus on Iraq, 
linked to its efforts in Syria. As with Syria, Iran's influence 
in Iraq corresponds directly to the degree that Iraq is 
weakened, estranged from its neighbors, and isolated 
internationally. The U.S. must do what it does best, what Iran 
cannot do: Mobilize other regional and European partners as 
well as international financial institutions to the effort of 
bringing stability and security to this vital country.
    Thank you very much.
    [The prepared statement of Ms. Leaf follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you all very much.
    I believe that what the four of you have said is probably 
news to most Americans, completely unaware of the situations 
that you have talked about. And that is unfortunate.
    Ambassador, is the United States in the business of nation-
building of Iraq?
    Ms. Leaf. No, not at this point.
    Mr. Poe. Dr. Kagan, do you believe that the United States 
is in the business of nation-building?
    Ms. Kagan. No, I do not. I believe the United States is in 
the business of helping Iraq secure itself; helping to keep 
Iraq sovereign, and helping Iraq to stabilize after ISIS took 
it over.
    Mr. Poe. Okay. Dr. Pregent, I could tell you wanted to 
answer that question. I skipped you real quick.
    Mr. Pregent. I would say the United States, unfortunately, 
has been the role of obfuscating the role of Iran. When we talk 
about what we are trying to do in Iraq, we are basically taking 
the Dawa Party position. We are taking a Shia political party 
tied to Iran's position on the way forward in Iraq and we are 
not listening to the Iraqi people.
    Our intelligence community didn't see ISIS coming. We 
didn't see Iran's creeping influence because of the 
intelligence gaps that we had, based on the level of engagement 
with Iraq, because we are talking to the Dawa Party and we are 
talking to Iraqi generals. And I have never met an Iraqi 
politician who has ever said the situation got worse on his 
watch or her watch, and I have never met an Iraqi general that 
said the situation got worse on his watch.
    Mr. Poe. Mr. Taleblu?
    Mr. Taleblu. No, I don't believe that the U.S. policy is 
nation-building, but I do believe that the U.S. does want to 
disabuse itself of Iraq entirely. And the reason I say that is 
the reason we are having a hearing about do these entities or 
do Iran's proxies in Iraq warrant designation in 2018 and not 
in 2007 or 2017 or 2016. It is because Washington simply seems 
to be pivoting away from Iraq and the Middle East at a time 
when Iran is looking to escalate and entrench itself in the 
Middle East.
    Mr. Poe. Do you think that Congress should take up and 
consider legislation to designate AAH and HHN as terrorist 
organizations?
    Mr. Taleblu. I mean, my initial wish was that the 
administration, multiple administrations, which have the legal 
authority to do so, would have done it earlier. So, it is never 
too late to correct a mistake, in my view.
    Mr. Poe. Dr. Kagan?
    Ms. Kagan. I would like the administration to take up 
designations to enforce sanctions that are possible through 
existing designations on terrorist groups, and depending on the 
outcome of government formation, then Congress should take up 
the legislation.
    Mr. Poe. Ambassador Leaf?
    Ms. Leaf. Mr. Chairman, I think the administration has a 
number of things already in its toolkit. This is one of them 
that you might----
    Mr. Poe. Should Congress take it up? That is my question.
    Ms. Leaf. Well, I am not really supposed to offer an 
opinion on that from my standpoint, but if you do, there is 
legal justification, absolutely.
    And I can tell you I was on the receiving end of a lot of 
Iranian resourcing and outfitting of these militias in 2010 to 
2011. I know very well, and many people knew very well then, 
the extent to which Iran was proliferating the field with 
destabilizing elements. I would like to see those tools used 
appropriately at the right time.
    Mr. Poe. Mr. Pregent?
    Mr. Pregent. I think we should definitely designate AAH and 
Harakat Nujaba now to prohibit them from gaining more influence 
in the Iraqi Government.
    Mr. Poe. Let me reclaim my time. Realistically, if Congress 
did this today, it would be a year before that would ever 
actually take place.
    Mr. Pregent. It wouldn't matter. Qais Khazali would hear 
it, and Qais Khazali would be affected by it.
    Mr. Poe. All right. Let me ask you this. It is based on 
your testimony. So, does the United States give the Iraqi 
Government money, hard cash?
    Mr. Pregent. Yes.
    Mr. Poe. And you have testified that the Minister of 
Defense of Iraq is one of these bad guys?
    Mr. Pregent. The Minister of Interior, Qasim al-Araji, was 
detained twice by U.S. forces for providing----
    Mr. Poe. Interior, not the Defense?
    Mr. Pregent. Interior, sir, but Interior controls the 
Federal police, all these militias, has access----
    Mr. Poe. And has access to U.S. intelligence?
    Mr. Pregent. Yes, has access to U.S. intelligence.
    Mr. Poe. So, we are paying money to the Iraqi Government, 
and this individual gets part of that money, obviously, or his 
agency does? And this organization, these two organizations 
have committed terrorist acts against Americans, and they have 
access to U.S. intelligence in Iraq?
    Mr. Pregent. Yes. So, they have----
    Mr. Poe. Is that right?
    Mr. Pregent. It is. That is the glaring truth to all of 
this.
    Mr. Poe. Why do we do that?
    Mr. Pregent. Because you will hear key language, if you 
listen to it. Former terrorist, now politician--Qais Khazali is 
not a former terrorist; he is still a terrorist and a 
politician. Qasim al-Araji is not a former member of Badr 
Corps.
    Mr. Poe. There is no such thing as a former politician.
    Mr. Pregent. He is a current member of Badr Corps and he is 
the Director of the Ministry of Interior. And you can't make 
those arguments. You see General Votel sitting across from 
Qasim al-Araji, a man detained twice for providing lethal aid 
to AAH to kill Americans, directed by Qassem Soleimani of the 
Islamic Revolutionary Guard Corps, sitting next to an American 
general, telling him, ``No, I'm not giving funds, equipment, or 
training to any Shia militias.'' And then, you find U.S. M1 
Abrams tanks, not battlefield captures, but tanks that were 
given to them by Iraq Security Forces to be used against 
Kurdish allies in the Kirkuk offensive.
    This isn't a political statement. This is just simply a 
statement of fact. Kataib Hezbollah, Badr Corps, and AAH have 
bragged about being able to use American equipment, from night 
vision goggles to advanced small armed weapons----
    Mr. Poe. And tanks?
    Mr. Pregent. To M1 Abrams tanks. And this is a violation of 
the Leahy law.
    Mr. Poe. This befuddles me.
    Mr. Pregent. This is a violation of the Lipinski Act.
    Mr. Poe. I have to reclaim my time.
    Mr. Pregent. Yes, sir, it is a pleasure. I will stop.
    Mr. Poe. Mr. Keating here wants to ask a lot of questions, 
and I am going to let him.
    Mr. Keating. Just quickly, if you could, yes or no, Mr. 
Pregent. Is our level of intelligence sufficient now in Iraq?
    Mr. Pregent. It is not.
    Mr. Keating. You made a statement that it is much improved.
    Mr. Pregent. It is not, sir, unfortunately. June 9th, 2009, 
we had a campaign called Out of the Cities, where we brought 
everybody back to major bases. Our intelligence footprint went 
black. We didn't know what was going on in Iraq.
    Our intelligence now is highly classified signals 
intelligence and highly classified human intelligence. The 
signals intelligence is basically a PR platform where Iraqi 
politicians can get on a cell phone and say very positive 
things about how they are not involved in sectarian acts or 
targeting of Americans or targeting of Iraqis.
    Mr. Keating. Right.
    Mr. Pregent. And the human reports are basically Brett 
McGurk going and talking to Iraqi politicians, and you have 
senior American official meets with Iraqi official, says that 
everything is okay.
    Mr. Keating. Okay. If I could, our time is so limited.
    Mr. Pregent. Sure, sure.
    Mr. Keating. Ambassador Leaf, I agree with a lot of your 
recommendations that you brought forward. I am concerned, too, 
that we are mostly one-dimensional on military emphasis. Now we 
are very sanction-centered perhaps in our alternatives. And one 
of my concerns has always been the lack of contingencies and 
other alternatives. Because as we go down this road, the more 
roads we have to influence things, the better off. And I think 
it has to be much more dynamic than it has been.
    So, can you talk to us a little bit about what the State 
Department, the USAID, the Commerce Department, the kind of 
things that you think they should be doing? Because we are all 
in agreement on this. I don't think most Americans, they are 
not looking at the ball here. I mean, this is one of the more 
critical areas that we are dealing with in the entire global 
footprint right now. We have invested so much in this. Yet, we 
are not paying enough attention. But that attention has to be 
at so many different levels to be effective.
    Could you comment on what we could do in some of these 
other areas I mentioned?
    Ms. Leaf. Yes. So, Congressman, you know, Iraq has always 
been a tough place to work as an American diplomat, a civilian 
official; obviously, for our military troops as well. Much of 
that was not only the violence that blew up in terms of Sunni 
violence and insurgency early on, but this proliferation of 
Iranian-backed militias made the operating environment for us 
extraordinarily difficult.
    As I said earlier, when I was in Basra 10 years ago, I had 
to go around with humvees and MRAPs. Nonetheless, I got out and 
about, and I met with governors and politicians and generals 
and normal Basrawees, as they call themselves.
    We have a consul general in Basra who was singled out in 
the aftermath of the violence against the Shia militia offices 
and the consulate. He was singled out as this great agent that 
was wreaking havoc against Iranian interests really in that 
area.
    That goes to the point that our diplomats are actually out 
in the terrain meeting all the time and doing what we do around 
the world, which is cultural and educational work, helping draw 
investment and business folks to a very difficult country.
    It was no accident that there was a shot taken against the 
consulate, a shot taken against----
    Mr. Keating. I hate to interrupt, but----
    Ms. Leaf. Sorry. I'm very sorry.
    Mr. Keating. I just want to get a sense of----
    Ms. Leaf. Yes?
    Mr. Keating. One of the puzzles I have at the end is this: 
We have talked about this increased nationalism in Iraq now. 
But can they get beyond their own divisions, Shia, Sunni, 
Kurds? I mean, we want them to be able to be stable and secure. 
How much of a problem do these divisions that are----
    Mr. Pregent. This is the first time you have Sunnis, Kurds, 
and Shia all saying Iran needs to get out of Iraq. We ignored 
it when the Sunnis said it. We ignored it when the Kurds said 
it. We cannot ignore it when 60 percent of the population of 
Shia is now telling us to do the same thing.
    Mr. Keating. That is great. Now what about internally 
looking at Iraq, though, and their own stability and their own 
ability as a democracy going forward? How much of that is still 
a very difficult obstacle for Iraq going forward?
    Dr. Kagan?
    Ms. Kagan. It is, indeed, a difficult obstacle for Iraq and 
Iraqis. There is an incredibly fragile state in Iraq, but it 
matters to the United States, its national interests, its 
economic interests, that the fragile state that exists now in 
Iraq builds itself into a robust sovereign state that is 
capable of securing Iraq from terrorists and is on our side.
    Mr. Keating. Okay, very quickly, because I am over my time. 
Just one quick question, yes or no. Give us a little hope here, 
too. I mean, going forward, putting a new government together 
after an election, my belief is the U.S. should look at this as 
a new opportunity going forward. Do you think this presents us 
a greater opportunity with this government? They have their own 
feeling of sovereignty. It is not just like our guy that is 
there. Doesn't that present an opportunity? Just quickly, yes 
or no.
    Mr. Taleblu. Yes, and it is an opportunity that should not 
be squandered, both for the sake of post-ISIS Iraq and for the 
sake of pushing back on Iran.
    Ms. Kagan. The United States has a unique opportunity to 
stand with the people of Iraq against Iran.
    Mr. Keating. Yes?
    Mr. Pregent. The U.S. has an opportunity to stand with the 
people of Iraq against the current political parties that 
control Iraq.
    Ms. Leaf. And, sir, I would just say that it is important 
that we not stick to an old model of trying to pick a guy.
    Mr. Keating. Right.
    Ms. Leaf. We ought to have a full flank of guys.
    Mr. Keating. I agree with that opportunity.
    Okay, I yield back, Mr. Chairman.
    Mr. Poe. I thank the gentleman.
    Mr. Perry?
    Mr. Perry. Thanks, Mr. Chairman.
    Mr. Pregent, we met some time ago at a hearing where this 
was outlined. The IRGC, as you know, you gave me the locations, 
the picture of the map with the IRGC flag on an M1 tank. And it 
was manifest in an amendment that I offered in the NDAA which 
passed. And it is about reporting. You know, it was as far as I 
could go, right? I wanted all the funds stopped immediately in 
the Train and Equip Program until we could prove that none of 
that taxpayer money was going to the IRGC or being used by IRGC 
proxies.
    I talked to the Secretary about it and he said, ``Look, we 
can't control if they fall into their hands.'' You know, they 
get them and there is a certain amount of that that happens, 
and it is not our country and we can't control that, which I 
said, ``We can control if they ever get any more,'' right?
    I couldn't convince enough folks on the initial amendment, 
but we have this one. So, I think we will see some reporting, 
and I hope we do, which will inform us. And then, maybe we can 
take some policy action.
    What are the downsides for designating these two 
organizations as terrorist organizations? What are the 
downsides? Why wouldn't we do that?
    Mr. Pregent. The argument is that it becomes a force 
protection issue if we designate them. But I would argue that 
it is already----
    Mr. Perry. Hold on.
    Mr. Pregent. Yes, sir.
    Mr. Perry. For people that don't know--you and I know.
    Mr. Pregent. Yes, sir.
    Mr. Perry. But explain why that is a problem.
    Mr. Pregent. We are afraid that, if we designate them, they 
will attack us. Well, they have already threatened to attack 
us. They have killed Americans in the past. AAH just launched 
rockets and mortars against our Embassy. They are actually 
being blamed for killing Iraqi protesters in Basra, to include 
prominent female protesters in the last 24 hours. So, they are 
already doing that.
    Harakat Nujaba is the one terrorist organization that we 
have actually used U.S. air strikes to decimate in Syria 
because they encroached on the U.S. training mission in al-
Tanf. AAH and KH surrounded an American base after President 
Trump authorized cruise missile attacks. They are already 
threatening us. They are already willing to attack us.
    Not only do we need to designate them, we can attack them 
now for a force protection issue, but we should actually change 
the AUMF as well to allow the targeting of designated terrorist 
organizations. We are okay killing Sunni terrorist groups. We 
need to be able to do the same with Shia ones that threaten 
U.S. forces.
    Mr. Perry. I have got an AUMF that does exactly that, but I 
can't seem to get much traction on that as well from either 
side.
    What is the downside? I mean, if we don't designate. They 
are out there. We know they are out there. They are using our 
stuff. They are attacking us. They are threatening to use it 
against us and attack us. If we ignore them, what is the 
potential?
    Mr. Pregent. Qais Khazali is so afraid of designation that 
he has sought to hire a lobbying group in DC to keep Congress 
from designating his terrorist group.
    So, here is the argument. Here is the biggest thing. Here 
is the strategy. If we don't designate Qais Khazali, then the 
argument, a month or 2 months from now, when government is 
formed, is that we can't go after somebody who has 15 seats in 
congress. That would be influencing their election process.
    Mr. Perry. Right.
    Mr. Pregent. This is a strategy to not designate AAH now, 
so that once AAH becomes a formal part of the Iraqi Government, 
the argument from the State Department will be, we can't 
designate them now because they are in the Council of 
Representatives. That is the strategy and that is why we should 
designate them now.
    Mr. Perry. Because it has worked in Jordan with the MB and 
other places, right? We can't do anything because they operate 
within the government. But there is a bigger, I guess there is 
a more desperate downside that, sure, then they are crafting 
policy and they are involved in crafting policy, but, then, 
they actually gain strength from a legitimate standpoint, and 
there is almost nothing we can do about it.
    Mr. Pregent. What is the strategy? Not to do anything now, 
but once they get entrenched in the Iraqi Government, then make 
the argument that we can't because they are actually sitting 
COR officials, and we would be doing what we say Russia is 
doing in our election, influencing an election.
    Mr. Perry. And thank you. So, with what little time I have 
left, tangible steps? Designation has to be one of them. What 
tangible steps?
    Mr. Pregent. Put them on the AUMF. They are designated 
terrorists. They threaten Americans in Syria, in Iraq.
    DoD is now contemplating putting air defense assets back 
into Iraq, not to protect against an ISIS threat, but against 
an Iranian threat, using Iraqi proxies. We are now moving or 
contemplating putting in counterfire battery systems and 
artillery, not to defend against ISIS, but to defend against 
Iraqi militias tied to Iran.
    So, we need to designate. We need to have other tools, such 
as the AUMF, and increase our intelligence focus on these 
groups, and stop relying on Dawa Party talking points to say 
that they are not a threat.
    Mr. Perry. Would that counter-battery be located at the 
Embassy or other points throughout the country, like in Basra 
or elsewhere?
    Mr. Pregent. Anywhere we have U.S. assets, you should have 
a Q36 and Q37 radar. You know what those are.
    Mr. Perry. Right.
    Mr. Pregent. Those are radars that tell you where it came 
from. And this AAH attack on our Embassy came from a Shia-
controlled neighborhood just east of Sadr City, where the Badr 
Corps Iraqi military commander was in charge of that battle 
space. So, you literally have Iranian proxies or IRGC Quds 
Force proxies in uniform and out of uniform threatening 
Americans. And our argument can't be we can't designate them 
because they will attack us. They already are.
    Mr. Perry. Already are, right.
    I yield.
    Mr. Poe. Mr. Schneider?
    Mr. Schneider. Thank you. I want to thank the chairman and 
ranking member for having this hearing, and the witnesses for 
being here and sharing your perspectives.
    Ambassador Leaf, you made, I think, the poignant comment 
that 2018 is not 2006 or 2011. And if I can, I would like to 
ask the panel to look forward longer term. What is the long-
term implication of failing to thwart the influence of Iran in 
Iraq, of failing to put a stop to these proxies? I will just go 
straight down the table.
    Mr. Taleblu. The long-term implications are gross, sir, and 
that is why it is an excellent question. It would be ceding a 
country which has immense oil resources to the world's foremost 
state sponsor of terrorism. It would be moral in terms of the 
human, material, blood, treasure that the U.S. has spent there. 
It would be political. It would be Iran being able to use Iraq 
as a launchpad, a literal launchpad. They could forward-deploy 
Tails, short-range ballistic missiles. Iran already has the 
largest ballistic missile arsenal in the Middle East. They 
could forward-deploy them into Iraq there.
    It could destabilize Saudi Arabia. We had the same concerns 
about a strong Iraq in the nineties doing that to Saudi. The 
same could happen if a strong pro-Iran Iraq could do that. The 
list, most unfortunately, goes on and on and on. Every 
opportunity that we have along the DIME paradigm--diplomacy, 
intelligence, military, economic--to influence Iraq, Iran would 
seek to co-opt that and use Iraq against us. It is a zero-sum 
game between the U.S. and Iran in the Middle East, and ceding 
Iraq would be a gross mistake.
    Mr. Schneider. Dr. Kagan?
    Ms. Kagan. I agree. In addition, the risks of creating 
conditions in which Iraq, once again, falls prey to terrorists, 
Sunni terrorist groups that exploit the vacuum, political and 
security, that exists when a sectarian Shia government backed 
by Iran controls their Security Forces, that risk goes up and 
up. And that is why it is a matter of national security to have 
Iraq stabilized, not under the strong hand of Iran, but under a 
political accommodation that is enduring.
    Mr. Schneider. Mr. Pregent?
    Mr. Pregent. This is a time to go after everything Iran 
touches in Iraq. Iraq's economy is actually doing better than 
Iran's is. Iran's is in the tank. This is an opportunity to 
pull Iraq away into its traditional bulwark status.
    But one of the biggest obstacles we face is, first off, 
ISIS is not defeated. ISIS has stepped up its attacks in 
Diyala, Saladin, Kirkuk Province. They have now had suicide 
bombings in Baghdad. So, ISIS isn't defeated, and the Shia 
militias are actually okay with that, because they use the 
argument that, because ISIS is still around, that they can 
continue to punish Sunni communities, Kurdish communities, and 
Shia Nationalist communities.
    We have to bring Iraq back into its traditional stance, an 
independent, sovereign country. I believe in relationships with 
your neighbors, but the United States doesn't dictate who the 
President of Mexico is going to be. The United States doesn't 
command Canada's security forces. The ``Islamic Republic of 
Mexico'' doesn't decide who our President is, and the ``Islamic 
Republic of Canada'' doesn't have primacy over our security 
forces.
    I want a role for Iraq that is absent Iranian influence 
other than trade and agricultural, religious activities, not 
this malign influence.
    Mr. Schneider. Ambassador Leaf?
    Ms. Leaf. So, the one point of variance I would have with 
Mike is that, when you talk about Iraq's traditional posture 
within the region, it was, if we look back in recent history 
prior to 2003, it was a very violent, aggressive, threatening 
relationship that it had in multiple directions.
    So, I agree with all my fellow panelists; this is a key 
point to influence the shape of things to come. But I do 
believe strongly that we have to step nimbly within sometimes 
the minefields, metaphorically, of Iraq's own domestic 
politics. We have to get, as I have said earlier, greater buy-
in to the effort by Saudi Arabia and the UAE, in particular. 
And you saw that in the past year, but it has got to be 
deepened.
    We can't go it alone and we can't do things that knock 
about and play to Iran's strength. The Iraqi nationalism is 
boiling. It is not just percolating; it is boiling. And I think 
we need to let it play that out.
    Mr. Schneider. Yes, I have to reclaim my time. I don't have 
the clock, but I see the light is on.
    Thank you. I think one of the challenges, proxies are a 
tool. It is not a strategy. Iran has a broader strategy, but 
the strategy is to drive their goals, and their goals are 
regional and disruptive to the entire region, I think. I think 
that is a key thing to understand.
    I wish I had more time. I will posit the question, and I 
guess we will leave it hanging. But, broadly, I think the 
conversation we need to have in Congress, and in this country, 
is what is the role of the United States, and drawing the 
distinction between that role, between engagement--and U.S. 
engagement is critical--but also leadership. And is there a 
role for U.S. leadership? Can we achieve our goals, what can be 
our strategy, without U.S. leadership?
    With that, I will yield back.
    Mr. Poe. I thank the gentleman. Well said.
    The gentleman from Virginia, Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    Thanks to the members of the panel, and apologies because I 
sort of came in on the fly. It has been a day.
    I want to start on the macro and work my way down. So, if I 
sound like I am way off the subject matter of countering 
Iranian proxies in Iraq, it is because I am, but we are going 
to sort of try to do a big picture down. And I am going to 
start all the way over in Northeast Asia and North Korea, as we 
talk about Korea nuclear and missile technology, right?
    North Korea right now has three marketable commodities: 
Human beings, which they almost literally sell. And you should 
learn more about that if you don't know about it. That there 
are people being sold for revenue for a state in 2018 is beyond 
comprehension. Coal and missile and nuclear technology. 
Economically, they are in a vice.
    Now, when you have but few marketable commodities, and 
there are people on the market for those commodities, you are 
going to sell them to who you can sell them to. That is the 
macro. We are working our way down.
    I would argue, and I think it is almost unassailable in its 
logic, that it is far more important what rhetoric is put out 
by the mullahs to the Iranian people than to the international 
community; that we should listen to what is said in Farsi and 
not what is said in English.
    And the rhetoric that is put out by the mullahs--and I 
listen to a Member of Congress, who I shall not name, say, 
``Well, Rouhani is the duly-elected President in a legitimate 
election.'' And then, I had to counsel this individual that 
there were 403 people who declared for that particular 
election, and the mullahs essentially approved four. So, sure, 
it was a free and fair election, if you consider that about 99 
percent of the people that wanted to run were disallowed, 
right?
    And so now, we have got a paradigm wherein, if you listen 
to the rhetoric in Farsi, and then, you take the historical 
paradox as it relates to nuclear configuration, right, 
mutually-assured destruction, and you lay an atheist nation 
state and its ideology, the Soviet Union, for example, on top 
of that, and then, contrast it to what is coming out of Iran, 
we need to consider that perhaps the game is a little 
different, right? The Iranian mullahs do not think like the 
former Soviet Union.
    So now, we are moving down another level. I did some math 
one time and estimated that, between 1979 and 1988, in the 
green revolution, if you adjusted for population, the United 
States in 1945 and Iran present-day, that the Iranian regime 
had killed as many of its people by percentage as the United 
States lost during the entire Second World War. That is the 
regime against its people. It is the IRGC and the Quds, et 
cetera, and they have demonstrated a willingness to quite 
literally shoot young female students in the face in the 
streets, with cameras rolling.
    And so now, as we look at this Iranian move toward the 
Mediterranean, that has manifested itself not just in Iraq, but 
also in Syria, and we look at what violence and horror has been 
visited upon dissidents in Iran, why are we to expect anything 
different in Iraq, et cetera, and Syria?
    And so, it has taken me a long way to get to the point, but 
I guess the point is that it is important we are here today. 
And so, the question I would have--and I have a finite amount 
of time as well--is, Iraqi Kurdistan, the number of attacks, 
say, for example, in Erbil are a fraction of what they had 
been. Now it is not non-existent, and to be sure, we haven't 
defeated ISIS. It is political rhetoric that is dangerous at 
best and stupid at worst to suggest that we have defeated an 
idea, because we won't defeat the idea in the short term. You 
can't beat an idea on the battlefield. We have eviscerated a 
lot of their war-making capability, but it is you can crunch 
all you want and we will make more. There are people coming 
because they believe in that idea.
    So, what is being done differently in places like Iraqi 
Kurdistan where we do see some stabilization, some assertion of 
localized control and some autonomy, and a reduction in Iranian 
influence that is not being done in, say, Iraq writ large? And 
what lessons can we learn?
    And then, secondarily, is there a way that the United 
States can support and advocate on behalf of ethnic and 
religious minorities? You know, the Nineveh Plain, for example, 
was in 2004 home to about 1 million, 1.5 million, Christians. I 
think last time I tried to get a good count, it was 200,000, 
which, by the way, by my definition would be definitely 
cleansing, if not genocide.
    But what can we learn from Iraqi Kurdistan, and what can we 
do to help ethnic minorities and religious minorities in Iraq? 
And how can we encourage an integration of these two subsets of 
the Iraqi population to create a sustainable Iraq?
    Mr. Taleblu?
    Mr. Taleblu. Taleblu.
    Mr. Garrett. Okay, I was ballpark. Sorry.
    Mr. Taleblu. That was quite close, though. Thank you, sir.
    Just based on the predicate you laid there with the North 
Korean-Iranian relationship, and Iraq first, it is very 
important to point out that some of Iran's most important 
medium-range ballistic missile systems do come from North 
Korea. It was actually the Iran-Iraq War that spurred Iran 
toward Pyongyang to procure those systems. The Shahab-2 and -3, 
the Shahab-3, and the Khorramshahr are all based on liquid-
fueled North Korean design. So, that is important to note for 
the record. All of them can carry a nuclear payload.
    Based on your question to the Kurds, I mean, the first kind 
of non-empirical thing to learn is hope, hope and 
determination. The U.S. has more than just capabilities on its 
side; it has resolve. It needs to win the balance of resolve 
against Iran.
    So, when you have ethnic minorities, as well as the rest of 
the majority in the country, resolute against Iran, you have an 
Iraq that you are able to use (a) as part of your regional 
strategy against Iran and (b) to support itself. So, the quest 
for sovereignty and resolve is something I would take from the 
experience of Iraqi Kurds.
    Mr. Garrett. And is there sort of a stratification as it 
relates to Iraq? You have got Kurds and Shia and Sunni. In the 
Sunni, I mean, is there a discernable lack of interest in sort 
of nationalist cooperation? I will let you finish and go from 
there.
    Mr. Taleblu. No, I think the Sunnis do want to be part of 
the political process, and when they are excluded from the 
political process and when they are downtrodden and 
dispossessed and squeezed into a corner, when you have Shiites 
finally take power is when you get things like ISIS. Everyone 
in Iraq deserves a choice that is much better than Qassem 
Soleimani or ISIS.
    Ms. Kagan. That brings me to an opportunity that I think we 
now have in Iraq to support and sustain population in the 
second largest city in Iraq, Basra, which is contested among 
different Shia political parties. There is a humanitarian 
disaster in Basra right now. It is water is non-potable. Latest 
reports that I have received are that 95,000 humans have been 
hospitalized in Basra as a result of the undrinkable water.
    These are the angry people who are protesting the 
government elites that are trying to form a corrupt government. 
This is the political milieu in which people are asking not for 
militia safety, but actual government institutions that are 
responsive.
    The United States should stand with the people of Basra. It 
should ensure that it, the United States, and its allies, are 
providing humanitarian aid to the people of Basra, not the Shia 
militia groups, not the Iranian-backed elements. The way that 
we can actually gain the most opportunity in Iraq is to support 
the people and not the politicians.
    Mr. Pregent. It is very hard to do that, unfortunately, 
supporting the people, and then, still supporting Baghdad's 
government. The Dawa Party is basically in charge.
    This picture in Basra where protests emerged in the face of 
Haider al-Abadi, ``our guy in Baghdad,'' in quotations, the one 
we are pushing forward, and Prime Minister Maliki, who is an 
Iranian puppet, who is somebody that led the Dawa Party, and it 
was conditioned on U.S. air support to defeat ISIS that Maliki 
stepped down, because he was blamed for this disenfranchisement 
in the Sunni and Kurdish populations.
    Their faces have now been merged. There is no party that is 
not tied to Iran, unfortunately. Even the moderate parties, 
Hikmah Party, Sayirun, Dawa--there is Dawa Tanzim and, then, 
there is Dawa--still want the U.S. to exit Iraq. And that is an 
Iranian strategic goal, is to get the U.S. out.
    The best answer for all three groups, you have 
disenfranchisement in the Sunni population, the Kurdish 
population, and the Shia population. They are all asking us to 
do something about Iran. This is the first time that has 
happened, and it is a great opportunity for the United States 
to listen to the people by not supporting the current structure 
in Iraq. And I don't know how we do that when there are no 
other parties that are allowed to form and to build consensus.
    Twenty-five percent of Iraqs voted in this election. Some 
will say it is as high as 40 percent. Well, it was 60 and 80 
percent before. And I don't know how we go forward, but we need 
to recognize the problem and we are ignoring it.
    Ms. Leaf. Congressman, one of my pet peeves is the 
diminishing profile that the bilateral relationship with Iraq 
has had in Washington for some years now. And really, we need 
to do better than that. And I say it to this administration, 
too. Look, the administration took what I think is a very 
important step forward in pulling together a more coherent 
policy on Syria, including how you deal with Iran there, by 
appointing Ambassador Jim Jeffrey. And you have seen the 
results already.
    We need not an envoy as such for Iraq, but you need a more 
coherent approach and a visible one with high-level Washington 
engagement. So, I would say, just as Dr. Kagan said, we can do 
something very significant in Basra. We can do something very 
significant in terms of working with the Kurds and getting 
Erbil and Baghdad back on a better track.
    We have an impact within Iraq of bringing people together, 
not weakening them, splintering them. And I would say, as soon 
as this new government is seated, an early visit by Secretaries 
Pompeo and Mattis would be in order, and an invitation for that 
Prime Minister to come to Washington. Reinvigorate the 
relationship.
    Mr. Garrett. Mr. Chairman, I know I am a million miles 
over.
    Mr. Poe. You are. I agree with you on that. [Laughter.]
    Ms. Leaf. I think I just put him over. [Laughter.]
    Mr. Garrett. No, no, you didn't. I was over before. Begging 
your indulgence for 30 seconds?
    Mr. Poe. The gentleman is recognized for 30 seconds.
    Mr. Garrett. First of all, I knew that Ms. Leaf was smart, 
but, then, when I read that she is an alumni of both the 
College of William and Mary and the University of Virginia, I 
realized you were really smart.
    Ms. Leaf. Thank you.
    Mr. Garrett. Ultimately, there are two points Dr. Kagan 
pointed out. The USAID paradigm always has been historically to 
deliver aid to people, ingratiating people and engendering 
goodwill toward the United States. Having said that, though, 
where people don't exercise self-determination, right--and so, 
it is kind of like the Chinese aid paradigm is give money to 
despots and dictators and ingratiate yourself to despots and 
dictators. The people aren't being able to--they don't feel 
empowered or enfranchised. So, we have to somehow change that.
    I grew up in a ``you break it, you buy it'' world, No. 1. 
No. 2, without walking down the regime change road, there are 
opportunities inside of Iran, because the IRGC and the Quds 
guys are out in the field, and the people in Iran are feeling a 
little antsy. So, I just want to say I support the Iranian 
people exercising some self-determination, and that is one of 
my indulgents for it. I think it is important to be said from 
here.
    Mr. Poe. You got a lot in in 30 seconds.
    I want to thank all of you for being here. It has been very 
informative, very good. We appreciate your expertise.
    The full committee tomorrow is taking up this very issue 
that we have discussed or you have discussed today, and we 
appreciate your valuable information. Very, very difficult 
times. But thank you once again.
    The subcommittee is adjourned.
    [Whereupon, at 3:13 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
